                                                              O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                         90 - 7 T H S TREET, S UITE 3-650
                                                                          S AN F RANCISCO , CA 94103
July 12, 2012

Report Number: A-09-11-02023

Mr. Thomas S. Paul
Chief Executive Officer
United HealthCare Medicare & Retirement
9701 Data Park Drive
MN006-E010
Minnetonka, MN 55343

Dear Mr. Paul:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part D Prescription Drug Event Data
for Schedule II Drugs at United HealthCare Medicare & Retirement. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Doug Preussler, Audit Manager, at (415) 437-8360 or through email at
Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-11-02023 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Thomas S. Paul


Direct Reply to HHS Action Official:

Mr. Timothy P. Love
Acting Deputy Director
Center for Medicare
Centers for Medicare & Medicaid Services
Mail Stop C3-20-11
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF MEDICARE PART D
  PRESCRIPTION DRUG EVENT
 DATA FOR SCHEDULE II DRUGS
   AT UNITED HEALTHCARE
   MEDICARE & RETIREMENT




                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-09-11-02023
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers the Part D program,
contracts with private entities called Part D sponsors that act as payers and insurers for
prescription drug benefits. A Part D sponsor may contract with a pharmacy benefits manager
(PBM) to manage or administer the prescription drug benefit on the sponsor’s behalf. Pursuant
to 42 CFR § 423.505(i), the sponsor maintains ultimate responsibility for complying with its
contract with CMS, which includes compliance with all Federal laws, regulations, and guidance.

Pursuant to sections 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR § 423.322, sponsors
must submit the information necessary for CMS to carry out Part D payment provisions and
program integrity activities. For every prescription filled, the Part D sponsor or its PBM
prepares a Prescription Drug Event (PDE) record and submits it to CMS. Certain fields in the
PDE record are completed using information provided by the pharmacy responsible for filling
the prescriptions. The PDE record, which is a summary record of individual drug claim
transactions at the pharmacy, enables CMS to make payment to the sponsor and otherwise
administer the Part D benefit. Pursuant to 42 CFR § 423.505(k), the sponsor must provide
certification as to the accuracy, completeness, and truthfulness of the claims data submitted for
payment purposes.
The Controlled Substances Act established five schedules based on the medical use acceptance
and the potential for abuse of the substance or drug. Schedule II drugs have a high potential for
abuse, have an accepted medical use (with severe restrictions), and may cause severe
psychological or physical dependence if abused. Pursuant to 21 CFR § 1306.12(a), Schedule II
prescription drugs may not be refilled. However, 21 CFR § 1306.13(b) provides that Schedule II
drugs for patients residing in a long-term-care facility and for the terminally ill may be partially
filled as long as the total quantity dispensed does not exceed the total quantity prescribed. Under
this provision, Schedule II prescriptions for these patients are valid for a period not to exceed
60 days from the issue date. In addition, pursuant to 21 CFR § 1306.11, Schedule II drugs may
not be dispensed without a practitioner’s written prescription.

United HealthCare Medicare & Retirement (United) contracted with CMS as a Part D sponsor to
provide prescription drug benefits to eligible Part D beneficiaries. United provided prescription
drug coverage to approximately 1 million beneficiaries and submitted to CMS over 9.7 million
PDE records for Schedule II drugs for dates of service from January 1, 2008, through
June 30, 2010.




                                                 i
OBJECTIVE

Our objective was to determine whether United had adequate controls to (1) prevent refills and
unallowable partial fills of Schedule II drugs and (2) ensure the accuracy of certain fields in the
PDE records submitted for Schedule II drugs.

SUMMARY OF FINDINGS

United did not have adequate controls to (1) prevent unallowable partial fills of Schedule II
drugs and (2) ensure the accuracy of certain fields in the PDE records submitted for Schedule II
drugs as required by Federal regulations. United did not have specific controls to prevent refills
of Schedule II drugs; however, the pharmacies that we visited either did not allow refills or had
edits in place to prevent refills of those drugs.

Of 94 judgmentally selected PDE records, 3 records represented unallowable partial fills. (There
were no refills.) In addition, of 100 judgmentally selected PDE records (which included the
94 records reviewed for refills and partial fills), 18 records contained inaccurate data in certain
fields when compared with the supporting documentation at the pharmacies. An additional
12 PDE records were inaccurate because they were for drugs that the pharmacies did not
dispense to beneficiaries.

The claims processing system’s edits were not adequate to identify unallowable partial fills to
prevent submission of PDE records related to those prescriptions, ensure the accuracy of certain
fields in the PDE records, or identify PDE records for drugs that pharmacies did not dispense to
beneficiaries. In addition, United has not provided to pharmacies any guidance clarifying
Federal requirements related to refills and partial fills of Schedule II drugs or submission of
accurate claim information for Schedule II drugs.

RECOMMENDATIONS

We recommend that United:

   •   strengthen its controls to (1) prevent unallowable partial fills of Schedule II drugs,
       (2) ensure the accuracy of submitted PDE records, and (3) identify PDE records for drugs
       that pharmacies did not dispense to beneficiaries;

   •   issue guidance to its pharmacies clarifying Federal requirements related to (1) refills and
       partial fills of Schedule II drugs and (2) submission of accurate claim information for
       Schedule II drugs;

   •   work with its pharmacies to ensure that appropriate reversals are processed for the
       12 PDE records for drugs that pharmacies did not dispense to beneficiaries; and

   •   work with its pharmacies to determine whether there are additional PDE records for
       drugs that pharmacies did not dispense to beneficiaries and ensure that appropriate
       reversals are processed for those PDE records.


                                                 ii
AUDITEE COMMENTS

In written comments on our draft report, United did not concur that it did not have specific
controls to prevent unallowable partial fills or refills of Schedule II drugs or that its claims
processing system’s edits were not adequate to identify unallowable partial fills. United stated
that the claims system correctly processed the three unallowable partial fills based on the
patient’s location in a long-term-care facility and the information provided by the pharmacy.
Regarding our finding that 18 PDE records contained inaccurate data in certain fields, United did
not concur on its overall ability to ensure the accuracy of PDE data that pharmacies prepare and
submit to United. In addition, United disagreed that it was responsible for providing to
pharmacies routine updates regarding Federal requirements. United concurred with our finding
that 12 PDE records were inaccurate because they were for drugs that the pharmacies did not
dispense to beneficiaries and provided information on corrective actions taken.

United’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Federal regulations make clear that, for a Schedule II drug to be partially filled, the total quantity
dispensed must not exceed the total quantity prescribed. For two of the three unallowable partial
fills, the pharmacy dispensed more than the total amount prescribed. For the third unallowable
partial fill, the pharmacist did not create written documentation supporting that an oral
authorization was received, as required by Federal regulations. Regarding United’s statement
that it is not able to ensure the accuracy of submitted PDE data, Federal regulations require the
sponsor to provide certification as to the accuracy, completeness, and truthfulness of the claims
data submitted for payment purposes. Nothing in United’s comments caused us to revise our
findings or recommendations.




                                                  iii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Medicare Part D .............................................................................................1
              Prescription Drug Event Data ........................................................................1
              Controlled Substances ....................................................................................1
              United HealthCare Medicare & Retirement and OptumRx ...........................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................3
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          FEDERAL REQUIREMENTS ..................................................................................4
               Federal Regulations for Schedule II Drugs ....................................................4
               Federal Regulations and Guidance for Sponsors ...........................................5

          UNALLOWABLE PARTIAL FILLS .......................................................................5

          INACCURATE PRESCRIPTION DRUG EVENT DATA ......................................5
               Inaccurate Data in Certain Fields ...................................................................6
               No Drugs Dispensed ......................................................................................6

          INADEQUATE CONTROLS ...................................................................................6

          CONCLUSION ..........................................................................................................7

          RECOMMENDATIONS ...........................................................................................7

          AUDITEE COMMENTS...........................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................8

APPENDIX

          AUDITEE COMMENTS




                                                                    iv
                                      INTRODUCTION

BACKGROUND

Medicare Part D

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage.

The Centers for Medicare & Medicaid Services (CMS), which administers the Part D program,
contracts with private entities called Part D sponsors that act as payers and insurers for
prescription drug benefits. Sponsors may offer prescription drug benefits through a standalone
prescription drug plan or as part of a managed care plan, known as a Medicare Advantage
Prescription Drug Plan.

A Part D sponsor may contract with a pharmacy benefits manager (PBM) to manage or
administer the prescription drug benefit on the sponsor’s behalf. PBM responsibilities vary, but
include services such as processing and paying prescription drug claims, contracting with
pharmacies, and negotiating rebates with drug manufacturers. Pursuant to 42 CFR § 423.505(i),
the sponsor maintains ultimate responsibility for complying with its contracts with CMS, which
includes compliance with all Federal laws, regulations, and guidance.

Prescription Drug Event Data

Pursuant to sections 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR § 423.322, sponsors
must submit the information necessary for CMS to carry out Part D payment provisions and
program integrity activities. For every prescription filled, the Part D sponsor or its PBM
prepares a Prescription Drug Event (PDE) record and submits it to CMS. The PDE record,
which is a summary record of individual drug claim transactions at the pharmacy, enables CMS
to make payment to the sponsor and otherwise administer the Part D benefit. Pursuant to
42 CFR § 423.505(k), the sponsor must provide certification as to the accuracy, completeness,
and truthfulness of the claims data submitted for payment purposes.
A Part D sponsor, or its PBM, completes certain fields in the PDE record using information
provided by the pharmacy responsible for filling the prescription. A PDE record contains fields
that identify (1) the sponsor, beneficiary, physician, pharmacy, drug, prescription reference
number, and fill number; (2) the dates that the prescription was filled and the PDE record was
processed; (3) the prescription drug cost and other payment information; and (4) physician’s
instructions on whether generic drugs may be dispensed.

Controlled Substances

The Controlled Substances Act (CSA), 21 U.S.C. §§ 801–971, established five schedules based
on the medical use acceptance and the potential for abuse of the substance or drug. Schedule I,



                                               1
which includes drugs or substances that have no currently accepted medical use and a high
potential for abuse, is the most restrictive, and Schedule V is the least restrictive.

Schedule II drugs have a high potential for abuse, have an accepted medical use in treatment in
the United States or an accepted medical use with severe restrictions, and may cause severe
psychological or physical dependence if abused (21 U.S.C. § 812(b)(2)). Except in emergency
situations or when dispensed directly by a practitioner other than a pharmacist to the ultimate
user, Schedule II drugs may not be dispensed without a practitioner’s written prescription
(21 CFR § 1306.11). Schedule II drugs include drugs such as oxycodone and morphine.

Pursuant to 21 CFR § 1306.12(a), Schedule II prescription drugs may not be refilled. However,
21 CFR § 1306.13(b) provides that Schedule II drugs for patients residing in a long-term-care
facility and for the terminally ill may be partially filled as long as the total quantity dispensed
does not exceed the total quantity prescribed. 1 Under this provision, Schedule II prescriptions
for these patients are valid for a period not to exceed 60 days from the issue date.

United HealthCare Medicare & Retirement and OptumRx

United HealthCare Medicare & Retirement (United) contracted with CMS as a Part D sponsor to
provide prescription drug benefits to eligible Part D beneficiaries. United provided prescription
drug coverage to approximately 1 million beneficiaries and submitted to CMS over 9.7 million
PDE records for Schedule II drugs for dates of service from January 1, 2008, through
June 30, 2010. For these PDE records, pharmacies were paid approximately $1.26 billion. 2

United contracted with OptumRx to provide PBM services beginning February 2007, including
claims processing and adjudication, as well as preparation and submission of PDE records. As
United’s PBM, OptumRx processed prescription claims from pharmacies for each drug
dispensing event. OptumRx used its claims software to process prescription claims at the point
of sale, which included implementing a series of edits and calculating certain data elements.
OptumRx used these data elements, as well as other Part D data, to create the PDE records and
submitted the PDE records to CMS. OptumRx also performed audits of the data received from
pharmacies. United maintained an oversight role in OptumRx’s processes.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether United had adequate controls to (1) prevent refills and
unallowable partial fills of Schedule II drugs and (2) ensure the accuracy of certain fields in the
PDE records submitted for Schedule II drugs.


1
  The CSA has an exception to the written prescription requirement for Schedule II drug prescriptions written for
residents of long-term-care facilities. A prescription received by fax may serve as the original prescription.
2
  The amount paid to the pharmacies is on behalf of the sponsor, beneficiaries, and third parties. The $1.26 billion
includes the amounts paid for original submissions of PDE records as well as any subsequent adjustments.


                                                          2
Scope

We limited our review to 8,180,629 PDE records for dates of service from January 1, 2008,
through June 30, 2010, representing $1,038,274,795 paid for Schedule II drugs under United’s
four standalone prescription drug plans. We excluded from our review PDE records that were
(1) for noncovered Part D drugs under the prescription drug plan, (2) deleted, (3) plan-to-plan
reconciliations, (4) subsequently adjusted, or (5) submitted in a nonstandard format.

We limited our review of internal controls to gaining an understanding of how United maintained
and monitored PDE records for Schedule II drugs and oversaw pharmacies’ claiming of these
drugs. We did not review the completeness of the PDE records; we limited our review to the
fields in the PDE records that contained data provided by the pharmacies responsible for filling
the prescriptions.

We conducted our audit from April 2011 to February 2012 and performed fieldwork at United’s
office in Minnetonka, Minnesota, and at selected pharmacies.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    interviewed CMS officials about the Federal requirements related to Schedule II drugs;

   •    reviewed United’s contract with CMS regarding its roles and responsibilities as a Part D
        sponsor;

   •    reviewed United’s contract with OptumRx regarding pharmacy contracting and
        processing of pharmacy claims;

   •    interviewed United officials regarding their monitoring and oversight of PDE data;

   •    obtained United’s PDE records for Schedule II drugs for dates of service from
        January 1, 2008, through June 30, 2010 (processed by CMS through November 2010);

   •    analyzed the PDE records by beneficiary, prescription reference number, and fill number
        to determine that 565,287 PDE records represented potential refills and/or potential
        unallowable partial fills;

   •    selected a judgmental sample of 94 PDE records and reviewed the supporting
        documentation at the pharmacies that submitted those claims to identify refills and
        unallowable partial fills;

   •    selected a judgmental sample of 100 PDE records (which included the 94 PDE records
        reviewed for refills and partial fills) and reviewed the supporting documentation at the


                                                 3
       pharmacies that submitted those claims to determine the accuracy of certain fields in the
       PDE records; and

   •   shared the results of our audit with United officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

United did not have adequate controls to (1) prevent unallowable partial fills of Schedule II
drugs and (2) ensure the accuracy of certain fields in the PDE records submitted for Schedule II
drugs as required by Federal regulations. United did not have specific controls to prevent refills
of Schedule II drugs; however, the pharmacies that we visited either did not allow refills or had
edits in place to prevent refills of those drugs.

Of 94 judgmentally selected PDE records, 3 records represented unallowable partial fills. (There
were no refills.) In addition, of 100 judgmentally selected PDE records (which included the
94 records reviewed for refills and partial fills), 18 records contained inaccurate data in certain
fields when compared with the supporting documentation at the pharmacies. An additional
12 PDE records were inaccurate because they were for drugs that the pharmacies did not
dispense to beneficiaries.

The claims processing system’s edits were not adequate to identify unallowable partial fills to
prevent submission of PDE records related to those prescriptions, ensure the accuracy of certain
fields in the PDE records, or identify PDE records for drugs that pharmacies did not dispense to
beneficiaries. In addition, United has not provided to pharmacies any guidance clarifying
Federal requirements related to refills and partial fills of Schedule II drugs or submission of
accurate claim information for Schedule II drugs.

FEDERAL REQUIREMENTS

Federal Regulations for Schedule II Drugs

Pursuant to Federal regulations (21 CFR § 1306.12(a)), Schedule II prescription drugs may not
be refilled. A separate prescription is required if a physician wishes to authorize continuation of
a patient’s use of a Schedule II drug beyond the amount specified on the first prescription.
However, Federal regulations (21 CFR § 1306.13(b)) allow for a prescription for a Schedule II
drug written for a patient in a long-term-care facility or for a patient with a medical diagnosis
documenting a terminal illness to be filled in partial quantities to include individual dosage units.
Under this provision, a Schedule II drug may be partially filled as long as the total quantity




                                                  4
dispensed does not exceed the total quantity prescribed. The prescription is valid for a period not
to exceed 60 days from the issue date. 3

Pursuant to 21 CFR § 1306.11, except in emergency situations or when dispensed directly by a
practitioner other than a pharmacist to the ultimate user, Schedule II drugs may not be dispensed
without a practitioner’s written prescription. In the case of an emergency situation, a pharmacist
may dispense Schedule II drugs upon receiving oral authorization from a prescribing
practitioner, provided that, among other things, the prescription is immediately reduced to
writing by the pharmacist and contains all information required in 21 CFR § 1306.05, except for
the signature of the prescribing practitioner.

Federal Regulations and Guidance for Sponsors

Pursuant to 42 CFR § 423.505(d), the sponsor agrees to maintain, for 10 years, records and
documents that are sufficient to accommodate periodic auditing of data and to enable inspection
of the quality, appropriateness, and timeliness of services performed under the contract with
CMS. In addition, pursuant to 42 CFR § 423.505(k), the sponsor must provide certification as to
the accuracy, completeness, and truthfulness of the claims data submitted. For every individual
drug claim transaction at the pharmacy, the Part D sponsor or its PBM prepares a PDE record.

Notwithstanding any relationship that the sponsor may have with related entities, contractors, or
subcontractors, the sponsor maintains ultimate responsibility for complying with its contracts
with CMS, which includes compliance with all Federal laws, regulations, and CMS instructions
(42 CFR § 423.505(i)). In addition, CMS’s Prescription Drug Benefit Manual, chapter 9,
section 50.2.6.3.1, recommends that the sponsor have systems capability to establish edits and
use edits to automatically deny claims or suspend payments on claims when appropriate.
UNALLOWABLE PARTIAL FILLS

Of 94 judgmentally selected PDE records, 3 records represented unallowable partial fills of
Schedule II drugs. (There were no refills.)

    •    For two PDE records, the pharmacy dispensed more than the prescribed amount of the
         drug.

    •    For one PDE record, the pharmacy filled an emergency prescription for a drug without
         documenting oral authorization from the prescribing practitioner.

INACCURATE PRESCRIPTION DRUG EVENT DATA

Of 100 judgmentally selected PDE records (which included the 94 records reviewed for refills
and partial fills), 18 records contained inaccurate data in certain fields. An additional 12 PDE

3
  Federal regulations (21 CFR § 1306.13(a)) also permit the partial filling of a prescription for a Schedule II drug if
the pharmacist is unable to supply the full quantity prescribed. The remaining portion of the prescription may be
filled within 72 hours of the first partial filling; however, if the remaining portion is not or cannot be filled within
the 72-hour period, the pharmacist may not dispense any further quantity without a new prescription.


                                                            5
records were inaccurate because they were for drugs that the pharmacies did not dispense to
beneficiaries.

Inaccurate Data in Certain Fields

We considered data to be inaccurate when certain fields in the PDE records did not match the
supporting documentation that we reviewed at the pharmacies. The 18 PDE records contained
the following inaccurate data: 4

       •   The fill number did not match the number of fills associated with the prescription as
           shown in the documentation maintained at the pharmacy.

       •   The dispense as written code indicating the prescriber’s instructions regarding generic
           substitution did not match the prescriber’s instructions on the prescription maintained at
           the pharmacy.

       •   The days supply of the drug did not match the number of days associated with the
           prescription as shown in the documentation maintained at the pharmacy.

No Drugs Dispensed

Of 100 judgmentally selected PDE records, 12 records were inaccurate because they were for
drugs that the pharmacies did not dispense to beneficiaries. OptumRX prepared these PDE
records from claims submitted to United by four pharmacies. The pharmacies had no supporting
documentation, such as physician-signed prescriptions and inventory logs showing that drugs
had been dispensed. Although the pharmacies and United received payment for these drugs, no
drugs were dispensed to beneficiaries.

INADEQUATE CONTROLS

OptumRx stated that the claims processing system had some edits in place to identify
discrepancies and errors in pharmacy claims, but it relies on the pharmacy to enter accurate data
for an allowable claim. However, the edits were not adequate to identify unallowable partial fills
by pharmacies to prevent submission of PDE records related to those prescriptions. In addition,
based on information provided by the pharmacies, the edits were not adequate to ensure the
accuracy of certain fields in the PDE records or to identify PDE records for drugs that
pharmacies did not dispense to beneficiaries.

United sends correspondence to its network pharmacies to remind them that they are
contractually obligated to be familiar with Federal requirements related to Schedule II drugs.
However, United has not provided to pharmacies any guidance clarifying Federal requirements
related to refills and partial fills of Schedule II drugs or submission of accurate claim information
for Schedule II drugs.



4
    All 18 PDE records had at least one of the types of inaccurate data shown.


                                                            6
CONCLUSION

Schedule II drugs have a high potential for abuse. Therefore, having adequate controls to
prevent refills and unallowable partial fills, while ensuring that an adequate and uninterrupted
supply is available for legitimate medical needs, is a valuable program integrity safeguard. In
addition, having adequate controls to ensure the accuracy of data in submitted PDE records is
essential to program integrity. Without adequate controls, Part D sponsors cannot properly
oversee the dispensing and monitoring of Schedule II drugs.

RECOMMENDATIONS

We recommend that United:

   •   strengthen its controls to (1) prevent unallowable partial fills of Schedule II drugs,
       (2) ensure the accuracy of submitted PDE records, and (3) identify PDE records for drugs
       that pharmacies did not dispense to beneficiaries;

   •   issue guidance to its pharmacies clarifying Federal requirements related to (1) refills and
       partial fills of Schedule II drugs and (2) submission of accurate claim information for
       Schedule II drugs;

   •   work with its pharmacies to ensure that appropriate reversals are processed for the
       12 PDE records for drugs that pharmacies did not dispense to beneficiaries; and

   •   work with its pharmacies to determine whether there are additional PDE records for
       drugs that pharmacies did not dispense to beneficiaries and ensure that appropriate
       reversals are processed for those PDE records.

AUDITEE COMMENTS

In written comments on our draft report, United did not concur that it did not have specific
controls to prevent unallowable partial fills or refills of Schedule II drugs or that its claims
processing system’s edits were not adequate to identify unallowable partial fills. United stated
that the claims system correctly processed the three unallowable partial fills based on the
patient’s location in a long-term-care facility and the information provided by the pharmacy.

Regarding our finding that 18 PDE records contained inaccurate data in certain fields, United
acknowledged the importance of accurate data but did not concur on its overall ability to ensure
the accuracy of PDE data that pharmacies prepare and submit to United. United stated that it is
not able to validate the accuracy or completeness of underlying documentation or audit each
claim submission in real time to ensure that accurate data are submitted. United added that
OptumRx monitors claims submissions for possible improper billing patterns or questionable
practices and that audits of selected pharmacies supplement this monitoring.

United disagreed that it was responsible for providing to pharmacies routine updates regarding
Federal requirements. However, United concurred that when a particular issue or known


                                                 7
problem with network pharmacy claim submissions is identified, reminding pharmacies of the
requirements is warranted. United stated that it accepts the recommendation to reach out to the
pharmacy network through a communication on the subject of partial fills of Schedule II drugs.
United also stated that it intends to provide communication to its network pharmacies on the
importance of accurate data submission.

United concurred with our finding that 12 PDE records were inaccurate because they were for
drugs that the pharmacies did not dispense to beneficiaries and stated that reversals for these
records had been or would be processed. United also stated that additional PDE records for
drugs not dispensed to beneficiaries were identified and reversed. United provided further
information on corrective actions taken.

United’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although the three unallowable partial fills were for patients residing in a long-term-care facility,
Federal regulations make clear that, for a Schedule II drug to be partially filled, the total quantity
dispensed must not exceed the total quantity prescribed. For 2 of the 3 unallowable partial fills,
the pharmacy dispensed 360 pills, divided among 3 dispensings of 120 pills each, when only
120 pills were prescribed in total. In each instance, the pharmacy requested a new prescription
from the doctor for 360 pills and overlooked that the doctor approved only 120 pills. For the
third unallowable partial fill, the pharmacist did not create written documentation supporting that
an oral authorization was received, as required by Federal regulations.

Regarding United’s statement that it is not able to validate the accuracy or completeness of
underlying documentation or ensure the accuracy of submitted PDE data, Federal regulations
require the sponsor to provide certification as to the accuracy, completeness, and truthfulness of
the claims data submitted for payment purposes.

Nothing in United’s comments caused us to revise our findings or recommendations.




                                                  8
APPENDIX
                                                                                                             Page 1 of7


                             APPENDIX: AUDITEE COMMENTS 





                                                                       ~ UnitedHealthcareO
                                                                                      MEDICARE & RETIREMENT




                                  Contract Years 2008 - 2010 

                            Office of Inspector General (OIG) Audit 

                                  UnitedHealthcare Response 

                      Part D Fieldwork - PDE Data - Schedule II Drugs


          A.I) OIG Findings - Unallo\\ ahle Partial Fills and hllldequat,· Controls:

            United did not have adequate controls to:
               (l) prevenl unallowable partial fills of Schedule II drugs and
               (2) ensure the accuracy of certain field s in the PDE records submitted for Schedule II
                   drugs as required by Federal regulations.

            United did not have specific controls to prevent refill s of Schedule II drugs; however, the 

            pharmacies that we visited either did not allow refill s or had edits in place to prevent 

            refills of those drugs. 


            Of 94 judgmentally selected PDE records, 3 records represented unallowable partial fi ll s 

            of Schedule IT drugs. (There were no refill s.) 


                1. 	 For two PDE records, the pharmacy di spensed more than the prescribed amount
                     of the drug and all owed two additional di spensings.




               2. 	 For one PDE record , the pharmacy filled an emergency prescription for a drug 

                    without documenting oral authorization from the prescribing practitioner. 





            The claims processing system 's edits were not adequate to identify unallowable partial 

            fill s to prevent submission ofPDE records related to those prescriptions, ensure the 

            accuracy of certain fields in the PDE record s, or identify PDE records for drugs that 

            pharmacies did not di spense to beneficiaries . In addition, United has not provided to 

            pharmacies any guidance clarifying Federal requirements related to refills and partial fills 

            of Schedule II drug s or submi ssion of accurate claim information for Schedule II drug s. 




                                                                                                Page 1 of7




*    Office ofInspector General Note: The deleted text has been redacted because it contained personally
    identifiable information.
                                                                                                          Page 2 of7




 Oplum l~ x slali::d thatlh.: claims processing system had some ed its in plae.: 10 identify 

 discrepancies and errors in phannncy claims, but it relies on the phannacy to enter 

 acc urate datu for:In allowabl e claim. However, Ihe cUils wen: nol ad equate 10 identify 

 unallowable partial fi lls by phamlOlcies to prevent submission ofl'D E n:cords related to 

 those prescriptions. In addition, based on infomlation provid~d by the phamlacies, the 

 c dit~ were not adequate to ensure the aeeuraey of eertain fidds in the POE rceords or to 

 identify PDf.; reco rds for dmgs that phamlaci.:-s did not dispense to beneficiaries. 


 Uni ted sends correspondence to its net wo rk phamlaeies to n."mind them that the y arc
 contractually obli gated to be fami liar with Federal requ irements rdated to Schedule II
 dmgs. However, United has not provided 10 phamlacies ,my guidance clarifying Federal
 req uirements related to refills and partial fill s of Schedule II dmgs or submission of
 accurate claim infomlation fo r Schedule II dmgs.

\ 1 & \ 2) 01(; Ih,,·nmnwnd.ltiH11"
 We re('ollllllcnd that United:

     1. 	 strengthen ils controls to (1) prevent unallowable panial fills of Schedule II drugs,
          (2) ellsure the accuracy of submitte d PDE records, and (3) id"'Illify PDE rccord~
          for dmgs Ihal phanmlCics did not dispense to beneficiari es;
     2. 	 issue guidan ce to its phamlacies clarifying Federal f<!<Juirements related to (I)
          refill s and partial I1Ils of Schedu le II dmgs and (2) submission of accuTale claim
          infonnatioll for Schedule I[ drug~;

\.1) {   umlJ.1n~ Ih'spUllst·   tu I mdincs .md { m 1t't tn t· \t tum ({t' quln'lIIt'lds:

 Unitedl lealthcarc ( United) respectfull y docs not concu r to the issues noted:
             • 	 United did not have specific controls to prevent unallowable part ial fills or
                 refil ls of Schedule II dmgs.
             • 	 The claims processing system's edits we n: not adequate to ident ify
                 unallowable partial fill s to prevent ~ubm iss i on of PDE records related to
                 those prescriptions.

 According to the Code of Federal Re gulations (2 1 CFR section 1306. 13, Partial fillin g of
 prescriptions). a prescription lor a Schedule U controll ed substance written for a p.1tient
 in a Long Ternl Care Fac ility ( I T C F) or for a pati ent with a med ical d iagnosis
 documenting a teml inal illness IlIay be fill ed in part ial quantities to include individu.1l
 dosage units. TIle 3 records that the DIG represented as a non-allowable partial til l were
 subm itted by an LTCI'. Optu mR :ocs claims adj ud ication system correctly processed the
 claims based on the patient's location (L TCF) and into nnatiQn prov ided by the
 phammcy. DptumRx's agreement with the phanllacy network requires the pharnmcy to
 maintain and provide cvjd<!llce to validate their adherenc<! to doculll<!nting a patient "s
 tenninal illness or LTC F and to repo rt acc urate infonll<lliOIl 10 the P B~·1.

 OptumRx r~quircs the pha nnacy to comply with state and Federal laws applicable to their
 bus iness as independalt contractor professionals in our pharmacy network. as noted in
 section 3. 13 of our Pharmacy Network Agreement . In addition, OptllmRx regularly sends
 to pharnlacics IUllcndments to the Phammcy Nc twork Agreement to comply with
 applicable new laws, including annual CMS Medicare Part D notice amendments. We
 respectfull y disagree that it is the responsibility of OpturnRx as a Phannacy Benefit
                                                                                            Page 2 <A 1
                                                                                                     Page 3 of7




 1\·lanag.:melll (1'6M) company to proviJ.: 10 phannacies rout ine updates ro:gardin g
 Federal requirements; however we concur that upon the identification of II panic ular issue
 or known problem wilh our network pham13cy claim submissions thaI <In action is
 wilrranh:d to clarify and n:mind pharmacies of th e fo:quir.:!1ll1!11tS and .:xpedations. We
 acceptlhe 010' s reCOtlUllcndnlion to reach Olil lo the phanllacy network through a
 commu ni cation Oil Ihe subject uf partial fills of Schedule [] controlled drugs _

 We 1I01e that our sys/all edits functioned correctly by restricting the lise of medication to
 a specific day sup ply with in a period of lim.;:. Two prcscri plicms with the same
 prescription Ilumbn wen: corn::c1ly prm:ess.:d within e1t:ven .:lays apart (4/24/ 10, and
 515110), with a d1Y suppl y of 12 and 5 days, respectively. The quantit y usage of the first
 claim was gro.:ate r than 75'l'" on the da y that the second claim processed. As stated in 2 1
 CFR section 1.106.1.1, an LTCF patient may receive a partial and incremental Sched ule II
 IiII of a single prescription over the course of a 60 day period from the issue date.


\.2 ) ()I(; I imlines - In.ll·l·UI11fl> PI·t'M·I iptiml 1)l"ue 1- 't'llt n.lt.l:


 Wc considered data to be inaccurate w hen ce rtain fidds in the PDE records did not match
 th e supporting doc um entation that we ro.: viewed at the phannacies. '11e 1X POE records
 conta ined the following inaccurat e data :
         111e fill numb<:-r did not matc h the number offills associated with the presc.ripti on
         as shown in the documentation maintained at Ihe phamuwy ,




          '111(: dispense as wrillen code indicating the prest-Tiber's instm eti ons regarding
          generic substitution did not match the prescriber's instructions on the prese ription
          maintained at the phammcy.




                                                                                       Page 3 <A 1
                                                                                                                    Page 4 of7




          lbc days supply of the dmg did not match the number of days associated with the
          prc~i..Tipti on   as shown in the documentation maintained at the phammey.




\.2) (   UIl1IJ.1n~   Hl'spunsl' tu   ~   intiinfs al1ll { HI north {' \(·tiun I{{'quil {'lIlt'llls:



Optum Rx acknowledges th e im portance of accurate data in rOE records and the
observations noted as " Inaccurate Prescription Dnlg Event DMa." We provide the
following [mlher background to the OIG regard ing the specific error examples

    • 	 FiU number did not IIIllteh PrC$c)iption - The refil l count code "01" is a self
        reported fie ld submitted by the Phannacy. llleTe is no aclual adjudication value
        10 this fi eld; th.: refore it is not poss ible to edit against wh.::ther this s\l()uld he a
        " 00" (indicatin g a zero refill or original prescription) or a "01 " or a "02"
        (indicating I or more refills).
    • 	 Dis pense a s written (IlA ' V) l'ud" did not ma tch the pl'escliption - ])A W code
        is entered by the phannacy at Point Of Sale (POS). TIle PBM does not ha\'e
        ability to view the hard copy of the prescription at POS wben the claim is
        electronical ly adjudicated.
    • 	 Day suppl y (OS) did not m at ("h th e pl"Cscliption - The OS is entered by the
        phamlllcyat POS. 111C Phannacy lkndlt ;\'Ianagcmcnt (PUM) docs not ha vc
        ability to view the hard co py of the prescription at POS whcn thc claim is
        e lectronicall y adjudicated.

Considering our rolc as admin istrator/adjudicator of phamla""y claims we rcsJl"Cctful ly do
not eo n("lIr with the O IG on our overall ability to ensure the accuracy of POE data points
that arc prcpared and subm illed to us by pharmacies. As claims arc suhmilled
clectronicall y and arc adjusted in a re altime basis, often with patients waiting to rcecive
their med icati on, we do not reeeiye nor do we ha\'c the abi lity to cvaluate supporting
documentation or records of either the prescriber or the pharmacy. We arc not abl e to
validate the accurdcy or complelt:ness of underl ying documentation or essentially audi t
each claim submission in real time to ensure accurate data is submitted as part of the
claim. '111e lIIallY systcm ed its of our ciaillls adjudication system, act as our primary
reasonableness checkpoint, looki ng for inconsistent data parameten> or other data
diserepancics that shou ld preve nt a claim from adjudicating.

l'n::scriben> and rhanllacie~ h,\\'i:: specific and uniquo: requi ri::m t!nL~ regarding their ta~ks
and operations. and it is their responsibility to pcrfonn and adhcre to the applicable
requiremenL<;, such a.~ sign ing prescription fon ns, indicating a patient's lenninal illness
stat u~, or di spt:nsing mt!dication as written when called fof. OptumR..: moniton; claims
submissions received for possible improper billing patterns or qucstiollllblc prd<.1ices
~cekin g to indcntify common erron; and points ofpartieular concern. especially relal;..""{\ to
fraud, waste and ahuse. Desktop and on-premise~ audil.!; of seieclt!d phamlacies
suppl emeUlthis monitoring. Action may be tnken against a pnrticular phann:lcy based 011

                                                                                                       Page' <A 1
                                                                                                             Page 5 of7




 th ei r identified pallerns and prdcti ce, up to and incl udin g potent ial h:mli nali o n from [hi;:
 OpmmRx network.

 We support o ur mle and can reas onably ad as a source of referral and infonllation 10
 regulatory agencies for their potential action against 11 presc riber or pharmacy, or 10
 supportlhci r ove rni ght and educati on efforts . We arc able to pro vide ge nera lized
 education to our pharmacies about expe~1.ed practices, and Ie the exknl we have
 knowledge of a particular problem to address such with them. [n this cas ..., we int.-nd to
 provide a co mmuni cati on to OllT network phanmlcio::s as a rem inder Ofll]() importance of
 accurate data submi ssio n and their adher.:nce to d(X:urm!'nlal iull r.:qu in:ments, 10 include
 the example data elTors noted by th" DIG.


II) ()I( ; I' indine~ - IrMl"l"lIr.lft' I'n'snipliun nrlle I' 'l'nt n.II.I:


 No Brugs Dispensed
 Of 100 judgm"ntally se1"cted PDE records. 12 r"CQrds w" r" inaccllrat" ~cause they wer"
 for dmgs thnt the phammc ies did not dispense to beneficiarit'S. OptumRX prepared these
 I'DE records from claim~ submitted 10 United by four phanmlcies. '[be phamlacies had
 no supporting doclUllentation, such as physician-signed prescriptions and inventory logs
 showing that dmgs had been dispensed. Alt hough the phannacies and United received
 payment for the~e dmgs, no dmg~ were di ~ pen ~ed to beneficiaries.


II) OJ(. Rt'lIJmnwnd,ltilln :

          I. 	 wo rk with its phamlacies to ensure that appropriale reversab are processed ['.IT
               the 12 POE records for dmgs thm phnnnacies did not dispense to
               beneliciaries; and
          2. 	 work with it~ phamlilcies 10 determine whether there are additional PDE
               records for dmgs that phannaeies did not dispense to beneftcinries and ensure
               that appropriate reversals are processed for those PDE records.

II) ( 'Ull p,lII~ Rt·sponst· to I· indings ,md ( 01"1 t'dl\ C htion I{t"q Uh'CIllClltS:

 OpIum Rx sl:lt l's fur Ihl' is.~ Ul· no t ed as "Nil J)I'ugs Dis pe nsed" CUnl' urrl' lIl'1' 10 Ihl' 12
 inacc umt l' PBE rt'cm-d s.

  OplUmRx response to the OIG regarding th is finding as foll ows:

          We strite COIlCllrrell ce "'itll tile Eigllt O ptumR"\" (Mail Serl'ice Operatioll)
          UIfICCll rntl! PDEIi.

          TIle following steps were taken immediately as corrective action :

               10   'Ille eigh t duplicates wen;: reversed on ()/ 15120 II and the PDE records
                     were corrected.


                                                                                               Page 5 <A 1
                                                                                             Page 6 of7




    • 	 A report was nIll to {IUanlify th e total impact and identify other duplicates
         incurred
    • 	 /\11 ident ifi ed dup licaks wen: reversed in th e claim system
    • 	 Veri fication checks wen: pc rfonncd to ensun:: thai PDE deletio n n::ctlnh
        were accepted by eMS
    • 	 A rool cause lUlalysis was pcrfonm;d to identify thallhc isslle resulled
         frolll a rare occasion whereby pr~c riptions that are cancelled after
        adjudication were nol systemati cally reversed in our systelll. To address
        th is, a balch process was implemented on 1/13/2 01 1 to de tect and report
        these situati ons, 111is process scans the database for prescriptions created
        during a specified d.ltC range for the previous week. Whcn it encounters a
        pr.::scriplion [hal is cancelled. il reviews Ihe adjudication transactions to
        match "Accepted" reversal tnUlsacti ons with correspond ing "Paid" billing
        transactions. A.ny prescript ion without the appropriate match to indi cate
        the system rcven;ed the daim is listed on the report and manuall y
        reversed.

 We st flte cOllcllrrell ce to tbefollr Optum/a: (Retail Pharmacy Net work)
i.l/accurate PDEs.

·nle following steps we re taken immediately as corrective action:

    • 	 TIle pharmacies were notified of the duplicate error.
    • 	 ·111e three dup licates were n::versed on 11 / 10/20 11 and the I'DE r.:cords
         were corrected and a note that the phamlacy was notified of the error was
         posted to th e claim transact ion.
    • 	 OptumRx will re verse th e claim that the pharnmcy could 1I0t provide
         supporting documentation to validate a dmg was dispensed.
    • 	 A root caus.: analysis was perfom1i::d on the three claims which id.: nti fi.:d
         that the issue was due to phamlacy billing errors that res ulted in two paid
         claim records. In two instances the phamJacy subm itted a lirst billing, but
         did not dispensc the medication to thc m..:mbc rlpatient. TIle pharmacy
         should have reversed their first billing before submitting a second billing
         but did not, resulting in OpIlUlIRx's Re fill ~Too+Soon (RTS)
         cdit appropriatel y prevcnting the sccond billing from proccssing. 11lc
         phannacies called into OptlUn Rx's Help Desk since they were aware that
         no prior dispens ing had occurred seeking a solution to pennit d is pensing
         ofthe medication at that tim..:. Our Help Desk issuc<l an "o\'..:rri<.k" to the
         RTS edit pennitting the intemal control to be by-passed so that th e
         medication could be dispensed. Our standard practice is to instruct th e
         pharmacics to reverse prior billings in these situations. I lowev~T. the
         phannacies did not reverse their first billings.
    • 	 In the case ofall claims, n ot jL.L~t t hosc for C l l~ , Customer Service
         Advocat.:s ar.: trai n.:d to a.~k the phamlacy for all n:levant infonnation
         about a denied claim in order to detemline wha t action is required. Plan
         guidelines and specillc scenarios will deternune the ap propriate action,
         ~ ueh a~ whether a r.:versal of a pre vious paid claim. a waiting period to
         resolve the RTS, an overri de of the current. d.:::n ied claim. or some other
         action is necessary. Training material was modifi ed OJI April 19, 2012 to

                                                                               Page 5 <A 1
                                                                                         Page 7 of7




    further clarify th e process, including specific reference to controlled
     medications
• 	 In the third instance, OptumRx validated that the lifted RTS was due to
     several states ' declaration ofa natural disaster. In these situations the edit
     is " lifted" to penn it member/patient access to medications during the RTS
     crisis situatiol1.
• 	 A communication wi ll be sent out 10 the phannacy network to reinforce
     their contractual obligation to avoid duplication billing and maintain
     records and accounts of all transactions regarding covered Part D
     Prescription Drugs to Medicare Drug Plan Members.




                                                                           Page 7 of 7
